U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Federal Bureau of Investigation, et al. v. Yassir Fazaga, et al., No. 20-828
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on June 7, 2021.
Petitioners’ opening brief on the merits is currently due July 22, 2021. On behalf of all parties, we
respectfully request, under Rule 30.4 of the Rules of this Court, that petitioners’ time to file their
opening brief and any joint appendix be extended to and including July 30, 2021. We further
request that respondents’ time to file their briefs be extended to and including September 21, 2021.
Under this Court’s rules, petitioners’ reply brief would be due 30 days later (or at the time specified
in Rule 25.3).
Counsel for all parties consent to these extensions of time.
Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0828
FEDERAL BUREAU OF INVESTIGATION, ET AL.
YASSIR FAZAGA, ET AL.

AHILAN THEVANESAN ARULANANTHAM
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES , CA 90017
213-977-5211
AARULANANTHAM@ACLU-SC.ORG
PETER BIBRING
ACLU OF SOUTHERN CALIFORNIA
1313 W. 8TH STREET
LOS ANGELES, CA 90017
213-977-5295
PBIBRING@ACLU-SC.ORG
CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING HALE & DORR
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6000
CATHERINE.CARROLL@WILMERHALE.COM
ALEXANDER COTE
SCHEPER KIM & HARRIS LLP
800 WEST SIXTH STREET
18TH FLOOR
LOS ANGELES,, CA 90017-2701
213-613-4655
ACOTE@SCHEPERKIM.COM

KATIE MORAN
WILMER CUTLER PICKERING HALE AND
DORR LLP
350 S GRAND AVENUE
SUITE 2400
LOS ANGELES,, CA 90017
213-443-5300
DAN STORMER
HADSELL STORMER KEENY RICHARDSON &
RENICK, LLP
128 NORTH FAIR OAKS AVE.
SUITE 204
PASADENA , CA 91103
626-585-9600
DSTORMER@HADSELLSTORMER.COM

